HHS/OIG, Audit - "Audit of Medicare Part A Administrative Costs for the
Period October 1, 2003, Through September 30, 2005, United Government Services,"
(A-05-07-00059)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Part A
Administrative Costs for the Period October 1, 2003, Through September 30, 2005,
United Government Services," (A-05-07-00059)
February 29, 2008
Complete
Text of Report is available in PDF format (1.55 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
United
Government Services reported expenditures in its cost proposals that
substantially complied with the Federal Acquisition Regulations and Medicare
contract provisions.  However, United Government Services understated senior
executive compensation costs by $320,109 for FY 2004 and overstated senior
executive compensation costs by $34,013 for FY 2005.  In addition, United
Government Services reported non-senior executive compensation costs that may be
unreasonable because the costs exceeded maximum benchmark amounts for senior
executive compensation by $48,774 for FY 2004 and $20,838 for FY 2005.
We
recommended that National Government Services, which assumed the Medicare
operations of United Government Services, (1) increase the FY 2004 cost proposal by
$320,109 and decrease the FY 2005 cost proposal by $34,013 to reflect allowable
senior executive compensation costs (2) and work with the CMS contracting officer
to determine the reasonableness of non-senior executive compensation costs of
$48,774 for FY 2004 and $20,838 for FY 2005 that exceeded benchmark amounts for
senior executive compensation.  National Government Services concurred with our
finding and recommendation regarding the misstatement of allowable executive
compensation but disagreed with our finding regarding non-senior executive
compensation costs that may be unreasonable.